Memorandum No. D2010-RAM-015       July 15, 2010





        American Recovery and Reinvestment Act 

         Project—Construct a Child Development 

           Center at Marine Corps Base Hawaii

Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CDC                           Child Development Center
FAR                           Federal Acquisition Regulation
NAVFAC                        Naval Facilities Engineering Command
OMB                           Office of Management and Budget
PWD                           Public Works Department
QMAD                          Quantitative Methods and Analysis Division
ROICC                         Resident Officer in Charge of Construction
                               INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202-4704



                                                                         JUL 1 5 2010


MEMORANDUM FOR NAVAL INSPECTOR GENERAL,
              MARINE CORPS INSPECTOR GENERAL,
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND, PACIFIC
               COMMANDING OFFICER, MARINE CORPS BASE
                 HAWAII PUBLIC WORKS DEPARTMENT

SUBJECT: American Recovery and Reinvestment Act Project- Construct a Child
         Development Center at Marine Corps Base Hawaii
         (Memorandum No. D20 1O-RAM-O 15)

We are providing this report for your information and use. We performed this audit in
response to the requirements of Public Law 111-5 , The American Recovery and
Reinvestment Act of2009. No written response to this report was required and none was
received. No additional comments are required.

We appreciate the cOUltesies extended to the staff. Please direct questions to
Mr. Timothy Wimette at (703) 604-8876 (DSN 664-8876).



                                            r~
                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Memorandum No. D2010-RAM-015 (Project No. D2010-D000LH-0107.000)                    July 15, 2010


               Results in Brief: American Recovery and
               Reinvestment Act Project—Construct a Child
               Development Center at Marine Corps Base
               Hawaii

What We Did
Our overall objective was to evaluate DOD’s
implementation of the American Recovery and
Reinvestment Act of 2009, February 17, 2009.
Specifically, we determined whether Navy and
Marine Corps personnel adequately planned,
funded, executed, tracked, and reported
Project P835, to build a Child Development
Center at Marine Corps Base Hawaii, to ensure
the appropriate use of Recovery Act funds.
                                                            The site above for the new Child 

                                                       Development Center at Marine Corps Base 

What We Found                                           Hawaii will accommodate 122 children. 

We determined that Project P835 was justified
and met the Recovery Act goals regarding
accountability and transparency. Personnel at
Naval Facilities Engineering Command Pacific
and the Marine Corps Base Hawaii Public
Works Department, and the Resident Officer in
Charge of Construction Office planned, funded,
executed, and had procedures in place to track
and report the project as required by the
Recovery Act and implementation guidance.

What We Recommend                                       The project site above is located next to
                                                                     base housing.
This report contains no recommendations.

Management Comments
We provided a discussion draft of this report on
June 11, 2010. We required no written response
to this report, and received none. Therefore, we
are publishing this report in final form.




                                                        The project site above is located next to
                                                         another Child Development Center.

                                                   i
Introduction
Objective
Our overall objective was to evaluate DOD’s implementation of the American Recovery
and Reinvestment Act of 2009 (Recovery Act), February 17, 2009. We reviewed the
implementation of the DOD Recovery Act plans at the Service and installation levels to
determine whether Navy and Marine Corps personnel managed individual projects to
achieve the accountability and transparency goals of the Recovery Act. Specifically, we
determined whether personnel at Naval Facilities Engineering Command (NAVFAC)
Pacific, the Public Works Department at Marine Corps Base, Hawaii (the PWD), and the
Resident Officer in Charge of Construction (ROICC) Office adequately planned, funded,
executed, tracked, and reported Project P835, to build a Child Development Center
(CDC) at Marine Corps Base Hawaii, to ensure the appropriate use of Recovery Act
funds. See the appendix for a discussion of the audit scope and methodology related to
the audit objective.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DOD received approximately $6.8 billion1 in Recovery Act funds to be used for projects
that support the Act’s purposes. In March 2009, DOD released expenditure plans for the
Recovery Act, which list DOD projects that will receive Recovery Act funds. The
Department of the Navy received $1.928 billion in Recovery Act funds for Operations
and Maintenance; Military Construction; and Research, Development, Test and
Evaluation. Table 1 provides specific amounts allocated to each appropriation.




1
  The $6.8 billion does not include $4.6 billion for the U.S. Army Corps of Engineers or $555 million for
the Homeowners Assistance Fund


                                                     1

 Table 1. Department of the Navy Program-Specific Recovery Act Appropriations
                  Appropriations                      Amount (millions)
 Operations and Maintenance                                 $916
 Military Construction                                        937
 Research, Development, Test and Evaluation                    75
  Total                                                    $1,928

Of the $1.928 billion appropriated, the U.S. Marine Corps allocated approximately
$9.6 million (Military Construction) for the construction of a CDC at Marine Corps Base
Hawaii. PWD personnel originally identified and prepared planning documents for the
CDC project in 2006. The ROICC Office identified this project for Recovery Act
funding because it met the requirements of the Recovery Act and was in the current
backlog of projects. NAVFAC Pacific contracting personnel awarded Project P835 as
the first task order under a competitive indefinite-delivery, indefinite-quantity, global
multiple award construction contract for $9,643,900.

Marine Corps Base Hawaii covers approximately 4,500 acres and maintains key
operations, training, and support facilities. Marine Corps Base Hawaii provides services
to support readiness and global deployment of ground combat forces and aviation units as
well as the morale and safety of military personnel, their families, and the civilian
workforce.




                                            2

Audit Results
We determined that Project P835 met the goals regarding accountability and transparency
as provided in the Recovery Act. The project was justified, and personnel at NAVFAC
Pacific and the PWD planned, funded, and initially executed the project in order to
achieve the goals of the Recovery Act. In addition, personnel in the ROICC Office had
adequate procedures in place to track and report the project as required by the Recovery
Act.

Planning
PWD personnel appropriately planned the project, which we determined to be justified.
According to planning documents, the existing CDC at Marine Corps Base Hawaii is at
full capacity, and the new CDC will provide additional spaces for child care. The
planning documents also stated that if the new CDC is not built, Marine Corps Base
Hawaii will fail to meet the childcare goals for the Headquarters U.S. Marine Corps and
the needs of military families, both of which could adversely impact the morale, welfare,
and retention of military families at Marine Corps Base Hawaii.

The DOD goal for childcare accommodation is to meet at least 80 percent of the
Service’s projected need.2 To meet this requirement, Marine Corps Base Hawaii must
plan to accommodate 202 children. Personnel in Family Services at Marine Corps Base
Hawaii stated that their plan to accommodate all 202 children uses a combination of
childcare options, not just CDCs. Specifically, the new CDC to be built under
Project P835 alone will accommodate 122 children. To make up the difference,
personnel in the Family Services at Marine Corps Base Hawaii stated that they plan to
accommodate the remaining 80 children by enhancing current family childcare programs
and networking with the surrounding communities. The new CDC will significantly help
to decrease the current need for child care and will assist the Marine Corps in meeting the
DOD goal for childcare accommodation.

PWD personnel appropriately planned the project by obtaining a detailed cost estimate
and economic analysis. PWD personnel based the cost estimate on facility planning
documents that stated the number of children currently needing child care and the amount
of square feet needed to accommodate those children. Contracting personnel at
NAVFAC Pacific also obtained an independent government estimate approved by a
certified cost engineer. The economic analysis identified possible alternatives to
providing childcare facilities, such as status quo, modification, leasing, and construction.
It showed construction as the best alternative for satisfying childcare requirements
because it was the least expensive.



2
  DOD Instruction 6060.2, “Child Development Programs,” January 19, 1993, requires the installation
commander, Defense Agency Director, or Commander to take appropriate action, as necessary, to expand
the availability of day care if the unmet need for child care for active duty military and DOD civilian
personnel exceeds 20 percent of the available space.


                                                   3

Funding
The Navy distributed Recovery Act funds to the CDC project in a timely manner, and the
funding documents properly identified a Recovery Act designation. Funding documents
showed the approval of funds for the project on July 30, 2009, the day before contracting
personnel awarded the contract. NAVFAC Pacific contracting personnel awarded the
contract for $9.7 million less than prior estimates. According to U.S. Marine Corps
officials, there is a plan in place to utilize the savings on the bid, which is in accordance
with May 2009 guidance from the Office of the Under Secretary of Defense
(Comptroller), Headquarters, and which states that the Components should apply their
management discretion to use bid savings for offsetting the cost growth in other projects,
regardless of location.

Execution
NAVFAC Pacific contracting personnel adequately performed the initial execution of the
project. In our evaluation of initial project execution, we determined whether the
contract was competitively solicited and awarded with full transparency, and whether it
contained the required Federal Acquisition Regulation (FAR) clauses for Recovery Act
contract actions.

NAVFAC Pacific contracting personnel competitively awarded the contract at a fixed
price of approximately $9.6 million on July 31, 2009. NAVFAC Pacific contracting
personnel issued the request for proposal competitively, and 10 contractors responded.
The technical evaluation board used five technical factors to evaluate the offerors, while
the price evaluation board performed a price analysis. The source selection authority
selected AMEC-Nan because it was technically ranked “first” and proposed the lowest
price. AMEC-Nan’s technical proposal includes goals for using small businesses. In
addition, AMEC-Nan had registered on the Central Contractor Registration Web page,
and the Excluded Parties List System did not list the contractor as debarred.

Moreover, contracting personnel properly recorded contract actions to facilitate full
transparency. Office of Management and Budget (OMB) Memorandum M-09-15,
“Updated Implementing Guidance for the American Recovery and Reinvestment Act
of 2009,” April 3, 2009, describes requirements for reporting Recovery Act-funded
actions in the Federal Procurement Data System and publicizing actions on the Federal
Business Opportunities Web site. Contracting personnel properly reported the contract
award in the Federal Procurement Data System and announced the pre-solicitation and
contract award on Federal Business Opportunities. NAVAC Pacific contracting
personnel also included all applicable FAR clauses required by Recovery Act
implementation guidance, including those for whistleblower protection, reporting, the
Davis-Bacon Act, the Buy American Act, and energy efficiency.




                                              4

Tracking and Reporting
Although construction on the new CDC had not started at the time of our review,
personnel in the ROICC Office had adequate procedures in place to track and report the
project. The engineering technician and a construction manager will monitor project
schedules, address nonconformances, and ensure the contractor meets contract
requirements.

In addition, a ROICC contracting officer will monitor and ensure the contractor reports
required Recovery Act information. FAR clause 52.204-11, “American Recovery and
Reinvestment Act – Reporting Requirements,” requires contractors for Recovery Act
projects to report project information at http://www.FederalReporting.gov. For the
second quarter of FY 2010, AMEC-Nan reported the number of jobs and total dollar
value for the project as required.


Conclusion
We concluded that construction of the new CDC filled a justified need. NAVFAC
Pacific and PWD personnel adequately planned, funded, and initially executed the project
in accordance with the accountability and transparency goals of the Recovery Act. In
addition, personnel in the ROICC Office had adequate procedures in place to track and
report Project P835 as required by the Recovery Act. Therefore, this report contains no
recommendations.




                                            5

Appendix. Scope and Methodology
We conducted this performance audit from January 2010 through July 2010. We
interviewed personnel from Headquarters U.S. Marine Corps, NAVFAC Pacific, the
PWD at Marine Corps Base Hawaii, and the ROICC Office at Marine Corps Base
Hawaii. We reviewed documentation including the official contract file, DD Form 1391
and associated support, the project design and construction schedules, and the
contractor’s Recovery Act reports. We also viewed the location for the new CDC. We
reviewed Federal, DOD, and Navy guidance, and compared this guidance with our audit
results.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, Federal Business Opportunities,
the federalreporting.gov Web site, and other systems. However, our use of computer-
processed data did not materially affect our audit results, findings, or conclusions, and the
information we used was obtained from sources generally recognized as appropriate.
Therefore, we did not evaluate the reliability of the computer-processed data we used.


Use of Technical Assistance
Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division (QMAD) of the DOD Office of Inspector General analyzed all DOD
agency-funded projects, locations, and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. QMAD selected most audit projects
and locations using a modified Delphi technique, which allowed them to quantify the risk
based on expert auditor judgment and other quantitatively developed risk indicators.
Initially, QMAD selected 83 projects with the highest risk rankings; auditors chose some
additional projects at the selected locations.

QMAD did not use classical statistical sampling techniques that would permit
generalizing results to the total population because there were too many potential
variables with unknown parameters at the beginning of this analysis. The predictive
analytic techniques employed provided a basis for logical coverage not only of Recovery
Act dollars being expended, but also of types of projects and types of locations across the
Military Services, Defense agencies, State National Guard units, and public works
projects managed by the U.S. Army Corps of Engineers.



                                             6

Prior Audit Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                         7

